Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention, Juvenile Restitution Initiative Balanced and Restorative Justice Project Awarded to the Florida Atlantic University Grant Number 1995-JN-FX-0024 
Boca Raton, Florida

Report No. GR-40-04-004


February 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Balanced and Restorative Justice Project (BARJ), including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Florida Atlantic University (FAU), headquartered in Boca Raton, Florida.  The purpose of this grant was to provide assistance to juvenile justice systems wishing to: 1) expand and enhance restitution and related restorative sanctioning programs and practices, 2) use these programs and practices as catalyst for broader changes in juvenile justice sanctioning and supervision practices, and 3) redesign or restructure their community supervision systems based on a Balanced Approach mission within a Restorative Justice conceptual framework.  As of September 30, 2003, the FAU was awarded a total of $2,018,869 to provide training and technical assistance to states and local jurisdictions wishing to implement to the BARJ model.  We tested the FAU's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 
At the time of our audit, the FAU had been reimbursed the entire $2,018,869 grant amount.  Our audit revealed deficiencies in the areas of reporting, grant drawdowns, budget management and control, grant expenditures, and monitoring of subrecipients.  As a result, we question $199,221 in grant funds received and recommend $20,419 in grant funds awarded be put to better use.1   In brief, we found that the FAU:

Did not submit some progress reports and submitted most other progress reports untimely.


Claimed and was reimbursed more costs than supported by its accounting records.  The excess funds reimbursed were subsequently returned to OJP and placed back in the grant account.  The excess funds should be deobligated and put to better use.


Received program income from the grant but did not report the program income on the financial status reports as required and could not show the program income was used for the BARJ grant project.


Claimed and was reimbursed costs that were either not allowed under the grant or were not supported by adequate documentation.


Claimed and was reimbursed indirect costs that were not supported by the accounting records.


Did not ensure that all subrecipients of grant funds complied with the audit requirements of Office of Management and Budget Circular A-133.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix  I.


Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.